SUPPLEMENTAL APPENDIX

ia
SUPPLEMENTAL APPENDIX
TABLE OF CONTENTS
Scardina v. Masterpiece Cakeshop Inc.
District Court of Colorado
Case No. 19CV32214
Findings of Fact and Conclusions of Law
June 15, 2021 ........................................................... 1a

1a
DISTRICT COURT, CITY
AND COUNTY OF
DENVER, STATE OF
COLORADO

DATE FILED: June
15, 2021 5:20 PM
CASE NUMBER:
2019CV32214

1437 Bannock St., Denver, CO
80202
Plaintiff(s), AUTUMN
SCARDINA
v.
Defendant(s),
MASTERPIECE CAKESHOP
INC et al.

 COURT USE
ONLY 
Case Number:
19CV32214
Courtroom: 275

Findings of Fact and Conclusions of Law
THIS MATTER comes before the Court following
a bench trial on March 22-24, 2021. The Court, having
reviewed the evidence presented, relevant legal
authority, the parties’ post-trial submissions, and
being otherwise fully advised, hereby makes the
following findings of fact and conclusions of law.
Introduction
The sole claim remaining for trial was whether
Defendants violated Colorado’s Anti-Discrimination

2a
Act (“CADA”), § 24-34-601, C.R.S., in refusing
Plaintiff’s request for a birthday cake. The Court has
organized this order under “findings of fact” and
“conclusions of law.” In doing so, the Court has not
attempted to distinguish between any mixed
questions of law and fact.
Findings of Fact
I.

The Parties
Plaintiff Ms. Autumn Scardina

1. Ms. Scardina is a resident of Arvada,
Colorado. (TMO § II (“Stip. F.”) at ¶ a.) Ms. Scardina
is a lawyer and a member of a law firm in Denver.
(Stip. F. ¶¶ b, c.) Ms. Scardina is a transgender
female. (Tr. 46:7-14.)
Defendants Masterpiece Cakeshop, Inc. and
Mr. Jack Phillips
2. Defendant Masterpiece Cakeshop, Inc. (“the
Bakery”) is a Colorado corporation with its principal
place of business in Lakewood, Colorado. (Ex. 52
at ¶ 6.) The Bakery is co-owned by Defendant Jack
Phillips and his wife, Debra Phillips. (Tr. 265:4-6.)
The Bakery also employs their daughter, Lisa
Eldfrick. (Tr. 480:25-481:1.)
3. The Bakery is “a business engaged in the sale
of baked items to the public,” including cookies,
brownies, birthday cakes, pre-made cakes (or “store
cakes”) and special-order or custom cakes. (Ex. 52 at
¶ 6; Tr. 265:17-266:12.)
4. Mr. Phillips is a resident of Lakewood,
Colorado, and the operator of the Bakery.
(Stip. F. ¶ e.) Mr. Phillips is ultimately responsible

3a
for the Bakery’s decisions about which goods it will
and will not sell and to whom. (Tr. 266:13-267:4.)
5. Mr. Phillips is a man of good faith religious
convictions. (Tr. 349:18-22.) He is a devout Christian
who seeks to operate the Bakery consistently with his
religious beliefs. (Tr. 349:18-350:2.) Mr. Phillips sees
himself as a “Christian witness.” He wants to live his
life, do his business, and engage everyone in a way
that honors Jesus Christ. (Tr. 364:23-365:11.) Mr.
Phillips named the Bakery “Masterpiece” based on
Jesus’ words in the Sermon on the Mount, where he
said no man can serve two masters. (Tr. 330:18331:5.)
6. At the same time, Mr. Phillips chose to
incorporate his business as a for-profit entity providing goods and services to the public. While this choice
does not take him outside the protections of the First
Amendment, it does subject him and the Bakery to
CADA. Whether there is a conflict between the former
and the latter is the primary legal issue in this case.
II. Genesis of the Dispute: Defendants refused
to provide a cake to a same-sex couple for
their wedding.
7. In 2012, a same-sex couple entered the
Bakery and requested a cake for their wedding; Mr.
Phillips declined. (Tr. 290:9-15.) There was no
discussion about the design of the cake or whether the
couple would be satisfied with one of the pre-made
store-cakes. (Tr. 416:18-418:14.) Instead, Mr. Phillips
testified that he “knew immediately that [he] can’t
create a cake for a same-sex wedding.” (Tr. 416:18418:3.)

4a
8. Mr. Phillips told the couple that he would
make them birthday cakes, shower cakes, cookies,
and brownies, but he cannot create a custom cake for
a same-sex wedding. (Tr. 417:14-418:14.) According to
Mr. Phillips, that cake would have expressed
messages that contradict his religious beliefs.
9. Mr. Phillips’ decision led to a legal action
brought by the Colorado Civil Rights Division
(“CCRD”). (Tr. 290:9-19.) His decision and the case
were covered extensively in the media and became
part of a public debate about religious freedom and
antidiscrimination laws. (Tr. 150:16-151:1.) Mr.
Phillips was quoted in the media, gave TV interviews,
and wrote op-eds seeking to explain his religious
convictions. (Tr. 155:3-156:13, 160:5-162:14, 163:24166:3, 167:24-168:14; Ex. 231 at 5-6.) Concurrently,
there has been an ongoing national public debate and
discussions on gender identity and antidiscrimination
laws. (Tr. 150:19-151:14, 153:22-154:2.)
10. After the Colorado Court of Appeals affirmed
an administrative law judge’s finding that Defendants had violated CADA by declining to create a
custom cake for a same-sex wedding, the U.S.
Supreme Court granted review on June 26, 2017, and
eventually overturned the decision of the Colorado
Court of Appeals. (Tr. 372:2-4, 378:21-379:4); see
generally Masterpiece Cakeshop, Ltd. v. Colorado
Civil Rights Comm’n, 138 S. Ct. 1719 (2018)
(“Masterpiece I ”).
11. Ms. Scardina first learned about the Bakery
from the media coverage of Mr. Phillips’ refusal to
make a cake for the same-sex couple’s wedding. (Tr.
47:23-48:4, 58:4-12.) Ms. Scardina heard multiple

5a
statements attributed to Mr. Phillips that, while the
Bakery would not make cakes for same-sex weddings,
the Bakery would provide any other baked goods,
including birthday cakes, to LGBT individuals. (Tr.
60:16-61:2, 193:13-19, 301:17-22, 302:8-14 (“I don’t
bake cakes for same-sex weddings, but I’d be happy to
make you anything else you want.”); Ex. 127 at 3
(“[H]e would make cakes for their birthdays and sell
them cookies or brownies, but that he wouldn’t make
a cake for a same-sex wedding.”).)
III. Ms. Scardina twice requested a birthday
cake, which also reflected and celebrated
her transgender identity.
12. On June 26, 2017, a few weeks before her
birthday and after learning that the U.S. Supreme
Court had agreed to review the Colorado Court of
Appeals’ decision against Mr. Phillips and the
Bakery, Ms. Scardina called the Bakery; Mrs. Phillips
answered the phone. (Tr. 59:10-13, 61:24-62:3,
170:13-20, 213:24-214:1.) Ms. Scardina asked if the
Bakery could make a custom cake for her birthday for
six to eight people. (Ex. 52 at ¶¶ 25-27; Tr. 63:1-63:16,
214:13-216:2.) Mrs. Phillips responded that the
Bakery could make a cake in the time indicated for
the amount of people requested. (Tr. 62:10-15, 215:3216:2.)
13. The Bakery was unusually busy and chaotic
that day. The press was there. There were many
customers. And the shop received a high volume of
phone calls. (Tr. 212:20-213:13, 223:22-23, 229:2-12,
378:21-379:6, 490:2-8.) As a result, Mrs. Phillips
answered Ms. Scardina’s initial call, instead of Mr.
Phillips doing so. After discussing when the cake was

6a
needed and the cake’s size and design, (Tr. 213:14216:2), Ms. Scardina elaborated that she wanted a
birthday cake with a pink interior and a blue exterior.
She also “explained that the design was a reflection”
of her “transition[ ] from male-to-female.” (Ex. 136 at
8.)
14. Based on her and her husband’s religious
convictions, Mrs. Phillips stated that “[the Bakery]
probably could not make that cake because of the
message.” (Tr. 219:9-18, 220:13-21, 221:23-222:2,
235:22-25.) Ms. Scardina then asked Mrs. Phillips to
repeat her statements so someone else could hear, at
which point Mrs. Phillips believed something was
wrong with the conversation and told the caller she
would get Mr. Phillips on the phone. (Tr. 222:3-18.)
Mrs. Phillips then went to get Mr. Phillips to take the
call, but when he picked up the phone, the line was
disconnected. (Tr. 385:23-386:2, 388:16-389:1.)
15. Ms. Scardina called back, and Lisa Eldfrick,
who had witnessed her mother take the prior call,
answered the phone. Ms. Eldfrick indicated that the
caller had just been on the phone with her mother,
that her mother had stated that the Bakery could not
make the cake, and repeated that the requested cake
“isn’t a cake we could make.” (Tr. 492:21-493:3.)
16. Defendants testified that they declined the
requested cake based on the message they believed it
would have conveyed—that a person can change
genders and that a gender-transition should be
celebrated. (Tr. 219:16-25, 220:17-25, 222:1-2, 249:19250:1, 307:21-308:3, 311:17-21, 314:7-16, 394:24395:5.) It would violate Mr. Phillips’s religious beliefs
to send a message to anyone that he would celebrate

7a
a gender transition. It would not matter if the
message only goes to one person. (Tr. 411:24-412:8,
414:8-15.)
17. The Court finds that Ms. Scardina initially
asked if the Bakery could make a pink cake with blue
frosting for 6 to 8 people and Mrs. Phillips agreed that
the Bakery could make the requested cake. (Ex. 52 at
¶¶ 27-28.) On this issue, Ms. Scardina’s and Mrs.
Phillips’ memory of the phone call was different.
(Contrast Tr. 63:25-64:17 (Ms. Scardina) with id. at
216:7-12 (Mrs. Phillips).) The Court need not
determine credibility to resolve this conflict, however,
because Defendants admitted in their answer that
Ms. Scardina’s version was accurate. (Ex. 52 at ¶ 28.);
Agnew v. Agnew, 185 P. 259, 259 (Colo. 1919) (a
defendant’s answer is a judicial admission that
cannot be controverted).
18. This conflict is also a distinction without any
effect because Mrs. Phillips confirmed that the
Bakery would have made a pink cake with blue
frosting if Ms. Scardina had not then shared her
protected status and the meaning of the colors to her.
(Tr. 239:11-15.) Only after Mrs. Phillips stated that
the Bakery could make the requested item did Ms.
Scardina then share that she had chosen those colors
to reflect and celebrate her transition from a male to
a female. (Tr. 64:18-66:8.)
19. When she was refused service by Defendants,
Ms. Scardina stated it “stung”—she felt as if she was
considered an undeserving, objectionable human and
that she was not as valuable, worthy or important as
other customers. (Tr. 91:3-10, 92:12-18.) The rejection

8a
felt like a strike at her dignity and at the LGBT
community. (Tr. 92:1-3.)
20. Ms. Scardina was in Denver during the call.
(Tr. 61:3-21.)
IV. Defendants would make an identicallooking item for other customers.
21. Mr. Phillips agreed that the Bakery would
make the same cake requested by Ms. Scardina for
other customers. (Tr. 315:23-316:9, 366:8-14.). In fact,
the Bakery has made and sold cakes that recognize
the cisgender status of an individual, such as a pink
cake for the birthday of a person who is identified as
female at birth, or a blue birthday cake for a person
who is identified as male at birth. (Tr. 267:12-14,
268:2-12.)
22. Mr. Phillips, however, has strong religious
beliefs that it is not possible for a person to be transgender. (Tr. 307:21-308:1.) He and his wife do not
believe that a person can transition from the gender
assigned at birth. (Tr. 212:2-7, 307:21-308:1.) As a
result, Mr. Phillips believes Ms. Scardina is a male
and will not acknowledge her transgender status or
that she is a female. (Tr. 307:10-12, 308:12-16.)
23. Defendants agree that a pink cake with blue
frosting has no inherent meaning and does not
express any message. (Tr. 221:1-8, 273:10-20; see also
id. at 454:2-13.)
24. Defendants will accept a customer’s representations about what the custom-made bakery item will
reflect, and will sell that custom item as long as it
comports with their religious beliefs. (Tr. 362:2-16,
238:16-239:15.) Defendants’ custom cakes might not

9a
communicate any particular message unless the
purchaser discloses to them what the item is intended
to convey. (Tr. 281:17-22.) Defendants agree that if
there was a pre-made pink and blue cake that Ms.
Scardina wanted to purchase from the Bakery for a
celebration of a birthday or a gender transition, they
would not have objected to selling her that item even
if she disclosed the meaning it had for her. (Tr.
352:19-353:6.)
25. Ms. Scardina was aware of the previous
litigation involving the Bakery’s refusal to sell a
wedding cake to a gay couple and that Mr. Phillips
had made public statements that he would sell any
other baked goods to the LGBT community. (Tr.
60:13-61:2, 193:9-19.) It was her understanding that
Mr. Phillips only objected to selling a wedding cake
because of his religious beliefs concerning marriage.
(Tr. 58:13-59:9, 60:13-61:2, 166:13-25.) Ms. Scardina
hoped that Mr. Phillips’ statements about selling
birthday cakes to members of the LGBT community
were true and that he would make her the requested
cake for her birthday. (Tr. 80:15-20, 93:5-94:7.)
26. The Court specifically finds that Ms.
Scardina’s request was a not “set-up” to initiate
litigation. In making this finding, the Court has
considered Ms. Scardina’s other interactions with
Defendants. The Court accepts her explanation for
any rudeness, and relies not only on Ms. Scardina’s
testimony at trial, but her demeanor while testifying.
Ms. Scardina credibly stated that she would have
purchased the cake if Defendants had agreed to make
it.

10a
27. Ms. Scardina was seeking to “challenge the
veracity” of Mr. Phillips’ statements that he is willing
to serve people who identify as LGBT and “call [his]
bluff.” (Tr. 92:24-93:4, 94:6-7, 169:8-14.) Ms. Scardina
sequenced what was said on the call to try to prevent
Mr. Phillips from arguing “it wasn’t about who I was,
but rather the message of what the cake was.” (Tr.
184:11-185:13.) Instead of ordering a plain white cake
and then telling the Bakery “I’m a transgender
person,” Ms. Scardina told the Bakery that the cake
was to celebrate a transition from male to female and
that the design reflected that transition. (Tr. 182:4185:20, 188:12-189:4, 216:7-12, 219:2-4; Ex. 133; Ex.
136 at 8.)
V. Ms. Scardina timely brought this claim
against Defendants.
28. Ms. Scardina filed a CADA discrimination
charge against the Bakery with the CCRD on July 20,
2017 based on Defendants’ decision not to create the
pink and blue cake to celebrate a gender transition.
(Tr. 74:24-75:6, 177:4-9; Ex. 46.) Both parties
requested jurisdictional extensions of time,
ultimately extending the CCRD’s jurisdiction until
October 13, 2018. (Tr. 432:18-434:19, 436:11-19.)
29. The CCRD issued a Probable Cause
Determination against the Bakery on June 28, 2018.
(Ex. 137; Tr. 508:12-16.)
30. The Colorado Civil Rights Commission issued
its Notice of Hearing and Formal Complaint on
October 9, 2018. (Ex. 138; Tr. 504:1-10.) Mr. Phillips
was named a party to that complaint. (Ex. 138; Tr.
316:20-22, 317:2-3.)

11a
31. The administrative case was closed on March
7, 2019 and the CCRD determined Ms. Scardina had
exhausted her administrative remedies. (Ex. 140; Ex.
141; Tr. 504:1-10.)
32. The Commission issued a closure order and
dismissed with prejudice the administrative
complaint on March 22, 2019. (Ex. 140; Ex. 141; Tr.
504:1-10.)
33. Plaintiff did not appeal this dismissal or
request and receive a right-to-sue letter. This suit was
timely filed on June 5, 2019.
34. Defendants moved to deposit $500.01 with the
court registry to moot the CADA claim. Defendants
later tendered a cashier’s check for $500.01 to
Plaintiff on February 18, 2021 and also promised to
pay court-ordered costs.
VI. Additional Findings regarding Defendants
and LGBT Customers
35. Defendants regularly serve customers who
identify as gay or lesbian. (Tr. 350:25-351:2.)
Defendants also serve customers who identify as
transgender. (Tr. 351:14-24, 486:1-10.)
36. Defendants’ willingness to serve those who
identify as LGBT includes the creation of custom
cakes for them. (Tr. 350:20-351:2.) For instance,
Defendants create a custom cake every year to
celebrate the birthday of a lesbian couple’s daughter.
(Tr. 295:19-24, 485:13-25.) Mike Jones testified that
he told Phillips he was gay on his first visit to the
Bakery and has received custom cakes and other
items many times over the course of his 25 or more
visits. (Tr. 441:16-21, 442:16-19, 447:19-448:4, 450:4-

12a
12.) Defendants have never declined to serve Mr.
Jones. (Tr. 442:20-22.) Mr. Jones has also not
requested a gay-themed cake.
37. While Defendants generally are willing to
serve anyone, Mr. Phillips claims his religious beliefs
prevent him from creating custom cakes that express
messages that would violate his religious convictions.
(Tr. 235:18-21, 351:21-352:11.) Defendants established this policy even before they opened the Bakery
in 1993. Pursuant to this policy, Defendants have
declined to create many types of cakes because of their
religious convictions. (Tr. 355:6-9, 358:12-16.) These
include cakes promoting Halloween, the “Day of the
Dead,” cakes with Harry Potter and Game of Thrones
themes, cakes celebrating same-sex weddings, and
cakes demeaning LGBT individuals. (Tr. 304:9305:12, 306:4-307:6, 354:24-355:22, 358:2-359:3,
359:22-360:15.)
38. Mr. Phillips also claims his religious beliefs
prevent him from creating a custom cake celebrating
a transition from male to female because expressing
that message—that such a transition is possible and
should be celebrated—would violate his religious
convictions. (Tr. 314:7-315:14.) He and his wife
believe that God designed people male and female,
that a person’s gender is biologically determined, and
that gender does not change based on an individual’s
perception or feelings. (Tr. 212:2-7, 307:21-308:3,
394:24-395:5.) Mr. Phillips will not create a custom
cake to celebrate a gender transition for anyone
(including someone who does not identify as transgender). (Tr. 366:8-367:10.) While Mr. Phillips will
not create the requested cake to celebrate a gender
transition, he could create a similar-looking cake to

13a
celebrate the birthday of someone who identifies as
transgender. That message would not violate his
religious beliefs. (Tr. 366:8-367:10, 396:12-19.)
VII.

Mr. Phillips and the “Art” of Custom
Cakes

39. Mr. Phillips uses artistic techniques and tools
when making bakery items, including both pre-made
and special-order cakes, but particularly for the
latter. (Tr. 334:6-15, 335:16-336:22, 398:3-14.) When
they are purchased, pre-made and special-order cakes
and other items are placed in boxes which display the
Bakery’s logo. (Tr. 397:8-20.)
40. Mr. Phillips took a number of art classes in
school. (Tr. 325:23-326:3, 327:2-10.) As he learned
how to decorate cakes, Mr. Phillips realized that
many of the same art techniques that he used in his
art classes could be applied to creating cakes. (Tr.
329:9-25.) For instance, he uses watercolor skills he
learned from art class on his cakes. (Tr. 333:19334:24.) He also uses artistic tools when creating his
cakes, such as paint palettes, paintbrushes of varying
sizes and textures, palette knives, and sponges. (Tr.
335:21-336:22, 338:10-17; DX-2.) Reflecting the use of
artistic tools and techniques, the Bakery’s logo is a
paint palette with a brush and whisk. (Tr. 331:8-20;
Ex. 30.)
41. Mr. Phillips uses artistic techniques and tools
to create intricate custom cakes, which convey the
message of the cake not only through written words
that may appear on the cake (such as “Happy
Birthday,” “Congratulations,” etc.) but also by the
design of the cake itself. (Tr. 344:19-345:8, 346:14347:10.) He uses these skills to create cakes unique to

14a
a celebration and to express an intended message.
(Tr. 414:22-415:23.) To reach this goal, Mr. Phillips
may use his artistic skills for even simple tasks, such
as selecting and applying colors. (Tr. 411:13-23.)
Examples of Mr. Phillips’ custom cakes are pictured
in Trial Exhibits. (Ex. 2; Ex. 6; Ex. 41.)
42. As part of the process of creating a custom
cake, Mr. Phillips envisions himself at the particular
celebration. (Tr. 347:18-348:10.) He thinks of himself
as a participant at the event he creates a cake to
celebrate. (Tr. 348:6-14.) Mr. Phillips also seeks to
communicate through his custom cakes. For example,
when he creates a custom cake for a memorial service,
through the design of the cake, Mr. Phillips seeks to
communicate that he cares, that he feels the family’s
sorrow and their loss. (Tr. 348:15-349:10.) When he
creates a cake, he feels he is “agreeing with the
message and taking part in [the occasion].” (Tr.
395:11-16, 409:14-20.)
43. In each of his custom cakes, Mr. Phillips
invests his “time and [his] talents and [his] energies
to create something. And if that something contains a
message or is to go to an event that [he] can’t
participate in or disagree[s] with, then [he] can’t, in
good conscience, create it.” (Tr. 408:13-21.) As the
owner and lead cake artist, Mr. Phillips makes the
final decisions on whether the Bakery will create
requested custom cakes. (Tr. 241:16-19, 266:13-16,
483:22-24.)
44. Defendants often create custom cakes that
convey messages through symbolism. For example,
Defendants created a cake resembling a torch. (DX-4.)
The torch symbolized the fact that a father was

15a
retiring and passing the family business on to his son.
(Tr. 486:21-487:14.)
45. Somewhat paradoxically, Defendants’ policy
based on their religious convictions applies only to
custom cakes. When Mr. Phillips makes premade
cakes, he may make six at a time and design them
similarly. He produces them to look the same, and he
can sell many of them. (Tr. 415:24-416:16.) Defendants sell premade cakes to anyone—even if they
know it would be used for a celebration that could
conflict with Mr. Phillips’ religious beliefs. (Tr.
352:19-24, 484:5-11.) For example, Defendants would
sell a premade cake to a customer who would use it at
a gender-transition celebration or for any other
reason. (Tr. 352:25-353:6, 408:13-21.) Unlike premade
cakes, Mr. Phillips creates each custom cake one at a
time from scratch; he seeks to express himself
through each of his custom cakes. (Tr. 167:9-19,
415:24-416:16.)
46. Defendants place all completed custom cakes
in a box bearing the Bakery’s logo, phone number, and
address. These details show that he made the cake.
(Tr. 362:17-363:4.) Knowing that the customer and
other people will see his cakes and realize they came
from the Bakery, affects the cakes Mr. Phillips creates
and the messages he promotes. (Tr. 365:2-20.) Mr.
Phillips believes his custom cakes reflect him
personally and the Bakery, and he wants his cakes to
represent them well. (Tr. 364:17-22.)
47. Defendants assert that context often
determines a custom cake’s message and is an
important factor that informs whether Mr. Phillips
will create a custom cake. For example, while Mr.

16a
Phillips will not create a rainbow-colored cake to
reflect gay pride, he would create a similar-looking
cake for a Sunday school class discussing Noah’s ark.
(Tr. 365:21-366:7, 368:1-12, 406:9-20.) Likewise,
while Mr. Phillips would create a cross-shaped cake
for a church to celebrate Easter, he would not create
a similar-looking cake for a racist group to reflect
white supremacy. (Tr. 367:11-25.)
48. Ms. Scardina testified that the requested cake
was to be used at a family celebration of her birthday
and gender transition. (Tr. 62:16-23, 65:2-15, 80:2181:7, 145:11-17, 149:25-150:5, 169:21-170:6, 187:1012, 188:16-189:4, 189:16-20, 191:20-25.) In context,
her concept of the requested cake, with a pink interior
and blue exterior, symbolized a transition from male
to female:
A. Ms. Scardina explained that the design was
a reflection of her transition from male-tofemale and that she had come out as
transgender on her birthday. (Ex. 136 at 8.)
B. The color pink in the custom cake
represents female or woman. (Tr. 145:24146:1, 146:17-19, 488:16.) The color blue in
the custom cake represents male or man.
(Tr. 146:11-16, 488:16-17.)
C. Ms. Scardina testified that the requested
cake design was “symbolic of the duplicity
of [her] existence, to [her] transness.” (Tr.
146:20-147:1.)
D. Ms. Scardina further testified, “the blue
exterior … represents what society saw
[her] as on the time of [her] birth” and the

17a
“pink interior was reflective of who [she is]
as a person on the inside.” (Tr. 150:2-5.)
E. The symbolism of the requested design of
the cake is also apparent given the context
of gender-reveal cakes, which have become
popular in at least the last six years. (Tr.
231:3-5, 488:1-489:4.) The interior of the
cake is either pink (for a baby girl) or blue
(for a baby boy); the exterior will be
different colors so that the baby’s gender is
only revealed when the parents cut into the
cake. (Tr. 488:1-25.)
49. From the foregoing facts, the Court further
finds as follows: (a) Ms. Scardina did not ask
Defendants to have Mr. Phillips use his creative
thought processes to create a cake with a particular
message—Ms. Scardina had pre-determined the
cake’s simple design of blue and pink; (b) Ms.
Scardina also did not request that Mr. Phillips
participate in her birthday or transition celebration,
or even package her order in a Masterpiece
container—she only asked him to supply a cake for
that event; (c) Mr. Phillips may use his artistic skills
for simple tasks such as selecting and applying colors,
but that does not equate to creating a message in
doing so—to the extent his testimony was intended to
suggest otherwise, the Court did not find it persuasive
or credible; (d) the design of the cake—if the colors
pink and blue even rise to the level of being a
“design”—was not the reason Defendants refused to
make the cake; and (e) instead, it was Ms. Scardina’s
intended use of the cake—to celebrate her
transition—that caused the refusal.

18a
Conclusions of Law
1. To prove a violation of CADA, Plaintiff must
show that, but for Ms. Scardina’s transgender status,
Defendants would not have refused to provide the
requested cake. C.R.S. § 24-34-601(2)(a); Craig v.
Masterpiece Cakeshop, Inc., 370 P.3d 272, 280 (Colo.
App. 2015) (“[P]laintiffs must prove that, ‘but for’
their membership in an enumerated class, they would
not have been denied” service.), rev’d on other
grounds, 138 S.Ct. 1719 (2018). The but-for test
requires that Ms. Scardina prove the protected trait
“actually motivated” Defendants’ decision and had a
“determinative influence” on the outcome. Hazen
Paper Co. v. Biggins, 507 U.S. 604, 610 (1993).
2. The Colorado Constitution, Article II, Section
10, and the First Amendment to the U.S. Constitution
protect a person’s decision not to express a message.
Wooley v. Maynard, 430 U.S. 705, 714 (1977); Hurley
v. Irish-Am. Gay, Lesbian, & Bisexual Grp. of Bos.,
515 U.S. 557, 573 (1995). These protections against
compelled speech apply even though public-accommodation laws generally regulate conduct. See Hurley,
515 U.S. at 573 (public-accommodation law could not
compel “speech”); Brush & Nib Studio, LC v. City of
Phoenix (“B&N”), 448P.3d 890, 903-05 (Ariz. 2019)
(same); Telescope Media Grp. v. Lucero (“TMG”), 936
F.3d 740, 752-56 (8th Cir. 2019) (same). And the
protections may apply even when the customer is also
a speaker. Anderson v. City of Hermosa Beach, 621
F.3d 1051, 1062 (9th Cir. 2010) (“As with all
collaborative creative processes, both the [artist] and
the person receiving the [art] are engaged in
expressive activity.”); B&N, 448 P.3d at 911 (similar);

19a
Buehrle v. City of Key West, 813 F.3d 973, 977 (11th
Cir. 2015) (similar); TMG, 936 F.3d at 758 (similar).
3. The Colorado Constitution, Article II, Section
4, and the First Amendment to the U.S. Constitution
protect the “free exercise” of religion. Defendants may
assert a free-exercise defense when government
action burdens their “sincerely held religious beliefs.”
Cambridge Christian Sch., Inc. v. Fla. High Sch.
Athletic Ass’n, Inc., 942 F.3d 1215, 1246 (11th Cir.
2019); see also Church of the Lukumi Babalu Aye, Inc.
v. City of Hialeah, 508 U.S. 520, 532 (1993) (“At a
minimum, the protections of the Free Exercise Clause
pertain if the law at issue discriminates against some
or all religious beliefs or regulates or prohibits
conduct because it is undertaken for religious
reasons.”). Religious beliefs need not be “acceptable,
logical, consistent, or comprehensible to others in
order to merit First Amendment protection.” Lukumi,
508 U.S. at 531 (cleaned-up). Government may not
“target[ ] religious conduct for distinctive treatment.”
Id. at 546.
I.

Legal issues before the Court.

4. The parties presented several issues for
resolution at trial regarding whether Defendants
violated CADA. First is whether the refusal to provide
Ms. Scardina with goods and services offered by
Defendants to the public was “because of” her status
as a transgender female. If that issue is resolved in
Ms. Scardina’s favor, Defendants raised the following
challenges: (1) whether application of CADA in this
context violates Defendants’ free expression and
religious exercise rights; and (2) whether the claims

20a
against the Defendants are procedurally barred. The
Court addresses each of these issues below.
II. Defendants refused Ms. Scardina’s requests
because of her identity as a transgender
woman.
5. Under CADA, “[i]t is a discriminatory practice
and unlawful for a person, directly or indirectly, to
refuse, withhold from, or deny to an individual or a
group, because of … sexual orientation … the full and
equal enjoyment of the goods[ or] services … of a place
of public accommodation[.]” C.R.S. § 24-34-601(2)(a).
Sexual orientation includes an individual’s transgender status or the perception thereof. C.R.S. § 2434-301(7).
6. There is no dispute, and the Court finds, that
the Bakery is a place of public accommodation. C.R.S.
§ 24-34-601(1). There is no dispute, and the Court
finds, that Ms. Scardina falls within the class of
individuals protected by CADA and informed Defendants of her transgender identity when placing her
order. There is no dispute, and the Court finds, that
Ms. Scardina requested “goods or services” from
Defendants and her requests were denied. The only
dispute is whether Defendants’ refusals were
“because of” Ms. Scardina’s transgender status. Ms.
Scardina argues that Defendants’ refusal to provide
her the requested cake was based, at least in part, on
her status as a transgender female. Defendants argue
that they did not refuse the requests because of Ms.
Scardina’s identity, but because of the message the
cake would have conveyed.
7. To meet the “because of” standard, Ms.
Scardina need not establish that her transgender

21a
status was the “sole” cause of the denial of service.
Rather, she need only show that the discriminatory
action was based, in whole or in part, on her protected
status. Craig, 2015 COA 115, ¶¶ 28-29. A “‘because of’
test incorporates the ‘simple’ and ‘traditional’
standard of but-for causation … [which] is established
whenever a particular outcome would not have
happened ‘but for’ the purported cause.” Bostock v.
Clayton Cty., Ga., 140 S.Ct. 1731, 1739 (2020). This
showing “need not be proven by direct evidence, but
may be inferred from the circumstances.”
Cunningham v. Dep’t of Highways, 823 P.2d 1377,
1381 (Colo. App. 1991).
8. CADA does not require Ms. Scardina to
establish that “some class-based invidiously discriminatory animus lay behind the defendant’s actions.”
Craig, 2015 COA 115, ¶ 37 (cleaned up) (citing Tesmer
v. Colo. High School Activities Ass’n, 140 P.3d 249,
253 (Colo. App. 2006)). Discrimination that is based
on conduct or attributes that are closely correlated to
protected status is discrimination based upon that
protected status. Craig, 2015 COA 115, ¶¶ 32-33
(collecting cases).
9. The Court concludes that Defendants denied
Ms. Scardina goods and services because of her
transgender status. Defendants admit that they were
willing to make the requested cake until Ms. Scardina
identified that she chose the colors to reflect and
celebrate her identity as a transgender female.
Defendants are, however, willing to make cakes for
non-transgender individuals that reflect that person’s
gender. And Defendants would “gladly” make an
identical looking cake for other customers.

22a
10. The Court finds the following testimony of Mr.
Phillips particularly germane: when asked why the
Bakery will not make any cake reflecting transgender
status, Mr. Phillips testified that he believes that no
one can change the gender assigned to them at birth
and he will not “celebrate[ ] somebody who thinks that
they can.” Mr. Phillips also confirmed that
Defendants’ decision not to provide Ms. Scardina with
her requested cake was “based on [his] religious
beliefs concerning transgender status.”
11. Defendants argue that they did not decline
Ms. Scardina’s request because of her transgender
identity, but rather because of the cake’s message—
“that a person can in fact transition from male to
female and such a transition is something to be
celebrated.” Defendants point to evidence that the
Bakery has provided baked goods to other members of
the LGBT community, including transgender
individuals, and that they would not make any baked
goods with the same message for a non-transgender
person purchasing the cake for a transgender friend.
These arguments are almost entirely beside the point.
12. CADA only requires Ms. Scardina to establish
that Defendants refused to provide her goods and
services because of her identity—it does not require
her to show that Defendants refuse to provide baked
goods to all LGBT individuals in all contexts. Craig,
2015 COA 115, ¶ 40 (“We reject Masterpiece’s related
argument that its willingness to sell birthday cakes,
cookies, and other non-wedding cake products to gay
and lesbian customers establishes that it did not
violate CADA. Masterpiece’s potential compliance
with CADA in this respect does not permit it to refuse
services to [plaintiffs] that it otherwise offers to the

23a
general public.”); see also id. ¶ 37 (CADA does not
require a showing that “some class-based invidiously
discriminatory animus lay behind the defendant’s
actions.”) (cleaned up).
13. Defendants have a religious objection to
making cakes that reflect the identity of LGBT
people—as LGBT people—including cakes that
recognize same-sex relationships, cakes that
recognize gay pride, or cakes that recognize
transgender status. Defendants’ willingness to serve
the LGBT community in some circumstances is
premised on a “limited menu” offering that courts
have repeatedly rejected. Craig, 2015 COA 115, ¶ 40;
Elane Photography, LLC v. Willock, 309 P.3d 53, 62
(N.M. 2013) (“[I]f a restaurant offers a full menu to
male customers, it may not refuse to serve entrees to
women, even if it will serve them appetizers.”).
14. That Defendants would not sell a cake which
they believe reflected a transgender individual’s
gender to anyone else, including a non-transgender
individual, does not lead to a different conclusion.
Even in Defendants’ hypothetical, the non-transgender person is purchasing the cake for the
celebration of a transgender person. CADA forbids
“directly or indirectly” withholding goods and services
because of protected status. C.R.S. § 24-34-601(2)(a)
(emphasis added).
15. Here, the refusal to provide the bakery item
is inextricably intertwined with the refusal to
recognize Ms. Scardina as a woman. See Craig, 2015
COA 115, ¶¶ 32-33. The concept that a business can
decide whether to make the requested item depending
on what information the customer provides would

24a
establish the equivalent of a “Don’t Ask, Don’t Tell”
rule—LGBT individuals would be entitled to equal
service only to the extent they do not request goods
that reflect their identity as LGBT individuals (or at
least do not inform Defendants of that reflection). As
the New Mexico Supreme Court stated in a similar
case, public accommodation laws do not apply “only to
the extent that [same-gender couples] do not openly
display their same-gender sexual orientation.” Elane
Photography, 309 P.3d at 62. So too here, CADA does
not protect Plaintiff only to the extent she keeps her
sexual identity to herself.
16. Finally, Defendants contend the Court should
defer to an interpretation that CADA does not forbid
“declining to create a custom cake with a message the
creator considers offensive[.]” In support, Defendants
point to three instances in which the CCRD found no
probable cause. This Court, however, has not been
presented any evidence establishing that the CCRD
has officially endorsed such an interpretation of
CADA. The Court does not take judicial notice of these
prior cases because they are not relevant here.
Further, the Court finds that the three instances cited
by Defendants are distinguishable because the
bakeries in those cases would not have made an
identical cake with the same images and words for
any customer. In this case, however, Defendants have
admitted they would “gladly” make an identicallooking cake for other customers. See Masterpiece I,
138 S.Ct. at 1732-33 (Kagan, J., concurring)
(distinguishing the cases relied on by Defendants
from the prior wedding-cake case); see also State v.
Arlene’s Flowers, Inc., 441 P.3d 1203, 1217-18 (Wash.
2019) (finding that other enforcement decisions were

25a
not relevant where a court was acting as the
adjudicatory body).
17. Alternatively, this Court has an independent
obligation to construe the relevant statute and
deference is not warranted where the “agency’s
interpretation is contrary to the statute’s plain
language.” BP Am. Prod. Co. v. Colo. Dep’t of Rev.,
2016 CO 23, ¶ 15; see also Ansel v. Dep’t of Human
Servs., 2020 COA 172M, ¶ 24 (Courts “need not defer
to an agency’s interpretation unless a statutory term
is reasonably susceptible to more than one
interpretation, and the agency has employed its
expertise to select a particular interpretation.”). Even
if Defendants had established that the CCRD
interprets CADA in the way Defendants claim, the
Court would not defer to that interpretation.
III.

Enforcing CADA does not violate
Defendants’ First Amendment Rights.

18. Invoking both the Colorado and U.S.
Constitutions, Defendants argue that application of
CADA to them in this context would impermissibly
compel them to speak and/or infringe on their
religious exercise rights.
A. CADA does not compel Defendants’
speech.
19. CADA does not compel speech but only
compels the Bakery to “comport with CADA by not
basing its decision to serve a potential client, at least
in part, on the client’s sexual orientation.” Craig, 2015
COA 115, ¶ 60; see also Arlene’s Flowers, 441 P.3d at
1225 (“We agree that the regulated activity at issue
in this case—Stutzman’s sale of wedding floral

26a
arrangements—is not ‘speech’ in a literal sense and is
thus properly characterized as conduct.”). And where
the regulated activity is conduct, it does not matter if
compliance might incidentally require Defendants to
engage in speech. Rumsfeld v. Forum for Academic
and Inst. Rights, Inc., 547 U.S. 47, 62 (2006) (“FAIR”)
(rejecting compelled speech argument because “[t]he
compelled speech to which the [plaintiffs] point is
plainly incidental to the [law’s] regulation of
conduct”). Because CADA does not compel speech, but
forbids discriminatory business practices, it does not
punish Defendants based on the content or viewpoint
of their speech.
20. Defendants, however, claim that application
of CADA would compel speech because the “exercise
of Defendants’ artistic talents and mind, are a form of
expressive speech” and constitute “pure speech.” In so
claiming, Defendants bear the burden to establish
that the First Amendment applies. Craig, 2015 COA
115, ¶ 55 (Defendants “must advance more than a
mere ‘plausible contention’ that [their] conduct is
expressive.”).
21. As an initial matter, the pure speech doctrine
requires Defendants to show that they are “genuinely
and primarily engaged in self-expression.” Cressman
v. Thompson, 798 F.3d 938, 953 (10th Cir. 2015)
(“Cressman II ”) (cleaned up, emphasis added); id. at
954 (“Pure-speech treatment is only warranted for
those images whose creation is itself an act of selfexpression.”). The evidence is that Defendants are
engaged in the sale of baked goods to the public and
are not “primarily engaged in self-expression[.]” Mr.
Phillips may often use artistic techniques and tools to
create baked goods. However, the fact that goods or

27a
services may involve some level of artistry or skill
does not transform all such goods into “expressive
speech.” Id. at 953.
22. Here, Defendants admit they use most if not
all the same skills when creating premade goods and
concede that those items are not expressive speech.
Defendants also agree that to understand any
message conveyed in a custom cake, you would “have
to ask the customer.” Based on the evidence
presented, the Court concludes that Defendants were
not requested by Ms. Scardina to engage in selfexpression. Perhaps the analysis would be different if
the cake design had been more intricate, artistically
involved, or overtly stated a message attributable to
Defendants. See, e.g., B&N, 448 P.3d at 905-08
(custom wedding invitations featuring calligraphy
and original artwork were pure speech); Masterpiece
I, 138 S. Ct. at 1723 (“If a baker refused to design a
special cake with words or images celebrating the
marriage—for instance, a cake showing words with
religious meaning—that might be different from a
refusal to sell any cake at all. In defining whether a
baker’s creation can be protected, these details might
make a difference.”).
23. As an alternative, Defendants argue that
making the requested cake constitutes symbolic
speech or inherently expressive conduct. To meet this
standard, Defendants must establish that in making
Plaintiff’s cake, the Bakery “conveys a particularized
message” and “the likelihood is great that a
reasonable observer would both understand the
message and attribute that message” to the Bakery.
Craig, 2015 COA 115, ¶ 61 (citing Spence v.
Washington, 418 U.S. 405, 410-11 (1974)). Citing

28a
Hurley, Defendants dispute whether the message
needs to be “particularized.” It is simply not settled
what effect Hurley has on the “particularized
message” element of the Spence-Johnson test.
Cressman II, 798 F.3d at 955-56 (detailing a split
among federal courts on this issue). Regardless, it is
incumbent upon Defendants to identify some message
that a reasonable observer both would perceive and
attribute to them. Id. at 956.
24. Defendants’ expressive conduct argument
fails because Defendants presented no evidence that
a reasonable observer would attribute any message
that was conveyed by the cake to Defendants. That
special-order cakes are put into a box carrying the
Bakery’s logo does not lead to a different conclusion.
The Bakery’s pre-made items are placed into the same
boxes with the same logo upon sale and Defendants
agree that no message would be communicated by
those items.
25. There is also no evidence in this case that a
reasonable observer would understand the cake to
convey any message attributed to Defendants.
Defendants admitted that the requested cake “doesn’t
have any particular inherent message[.]”
26. Defendants argue, however, that context
matters and that there is an inherent message in the
requested cake because of the type of event being
celebrated. Mr. Jones testified that if he understood
that a pink and blue cake was served at a party “to
celebrate [a] friend’s transition from male to female”
he would understand “what pink represents and what
blue represents” “as a member of the LGBT
community.” But if “additional speech would be

29a
required for an outside observer to understand” the
claimed message, the conduct is not inherently
expressive. Arlene’s Flowers, Inc., 441 P.3d at 1226
(citing FAIR, 547 U.S. at 66). Here, the event would
create the message, and not the product itself. Mr.
Jones’ testimony thus confirms that “additional
speech” is required to understand the meaning
ascribed by Defendants. Further, Defendants
admitted that if an identical-looking cake was
purchased as a pre-made cake and taken to an
identical event, they would not be expressing any
message.
27. At bottom, Defendants’ view of whether they
are being compelled to speak turns on what they know
about a cake’s specific intended use when they are
asked to make it. That is not the test for, nor
consistent with finding, expressive conduct.
Moreover, as multiple courts have confirmed,
providing a product for an event does not “inherently
express a message about that” event. Arlene’s
Flowers, 441 P.3d at 1226; see also Craig, 2015 COA
115, ¶ 63; Elane Photography, 309 P.3d at 64-65.
28. The Court concludes that a reasonable
observer of the requested cake would not attribute
any message to Defendants and would not
understand the cake to convey the message claimed
by Defendants, i.e., endorsement of a gender
transition. Therefore, Defendants have failed to carry
their burden to show that providing the requested
cake constituted any type of symbolic or expressive
speech protected by the First Amendment.
29. Nor is the Court’s analysis altered by Ms.
Scardina being the source of an intended message.

30a
Free speech protections still can apply where the
customer is also a speaker. See, e.g., TMG, 936 F.3d
at 753, 758. Although Ms. Scardina could be
considered a speaker in this context, Defendants—as
explained above—would not have joined in that
speech by making the requested cake. This case is
therefore different from Hurley, where the parade
organizers were engaged in their own speech in the
form of a parade. 515 U.S. at 568-70. Similarly, in
TMG, the plaintiffs were engaged in their own speech
in the form of film. 936 F.3d at 750-51. Such activities
are inherently expressive, and application of the
public accommodation laws in those cases had the
effect of foisting a third-party’s message on another
speaker. Id.; TMG, 936 F.3d at 753, 758. That is not a
concern here, because the act of making a pink cake
with blue frosting is not speech.
30. While Defendants also have invoked their
freedom of speech rights under the Colorado
Constitution, they have failed to present any
argument or cite any authority that the outcome
would be different under the Colorado Constitution.
Therefore, Defendants have failed to show that their
freedom of speech under either the U.S. or Colorado
Constitutions would be violated by holding them
liable for their violations of CADA. Craig, 2015 COA
115, ¶ 47 n.9.
B. CADA does not infringe on Defendants’
religious exercise.
31. CADA is a neutral law of general
applicability. Craig, 2015 COA 115, ¶¶ 86-91.
32. Citing to Masterpiece I, Defendants contend
that application of CADA here targets them for their

31a
religious exercise because an “offensiveness” rule was
applied in other cases and, therefore, that CADA is
being selectively enforced. Masterpiece I, however,
held that “the adjudicatory body tasked with deciding
a particular case must remain neutral; that is, the
adjudicatory body must ‘give full and fair
consideration’ to the dispute before it and avoid
animus toward religion.” Arlene’s Flowers, 441 P.3d at
1209-10 (quoting Masterpiece I, 138 S. Ct. at 1732).
Defendants’ have not claimed that this Court has
failed to remain neutral. And this case is
distinguishable from Masterpiece I because neither
the CCRD nor the State of Colorado has any
involvement in this litigation, which also precludes
any claim of selective enforcement. See Arlene’s
Flowers, 441 P.3d at 1217-19 (alleged selectiveenforcement claim based on state’s conduct in another
potential case “would not extend to” a private suit to
enforce Washington’s public accommodation law). In
this respect, the Court otherwise takes no position on
the so-called “offensiveness” rule, or how CADA
applies in other cases that were before the
Commission.
33. Once more citing the so-called “offensiveness
rule,” Defendants also claim that CADA permits a
system of individualized exemptions. As previously
explained, the Court does not interpret CADA to
have, nor is it proper to apply, an “offensiveness”
exemption.
34. Defendants also claim that strict scrutiny
must apply because they have asserted a free exercise
defense coupled with their free speech defense.
Setting aside whether the hybrid rights doctrine even
exists, Craig, 2015 COA 115, ¶ 94, because applica-

32a
tion of CADA does not implicate Defendants’ freedom
of expression, the doctrine does not apply here. Id.;
Arlene’s Flowers, 441.
IV.

Ms. Scardina’s claims are procedurally
proper and not moot.

35. Finally, Defendants have reasserted a series
of procedural arguments claiming that Ms. Scardina’s
claims are either moot or procedurally barred: (1) Ms.
Scardina’s claim is moot either because of Defendants’
denied request to deposit funds or because of
Defendants’ claimed tender of funds; (2) Ms. Scardina
did not satisfy CADA’s conditions for bringing a
private suit; (3) Ms. Scardina did not prove the Court
has jurisdiction; (4) claim preclusion bars Ms.
Scardina’s claim; and (5) Ms. Scardina has not proven
venue. Except for the claim regarding mootness based
on the alleged tender of funds, the Court has already
rejected these arguments and, for the same reasons
set forth in its prior orders, rejects them again.
36. As for the tender argument, the Court adopts
its prior holding that it will not deem the CADA claim
moot absent an admission of liability. To do otherwise
would conflict with the purpose of CADA, which is to
further the public policy of eliminating discriminatory
practices. See Colo. Springs v. Conners, 993 P.2d
1167, 1174 (Colo. 2000); Brooke v. Rest. Servs., Inc.,
906 P.2d 66, 71 (Colo. 1995). Because Defendants’
claimed tender is made with an explicit denial of
liability, it is not a proper tender. Campbell-Ewald
Co. v. Gomez, 577 U.S. 153, 170 (2016) (Thomas, J.
concurring) (“[A] tender of the amount due [is]
deemed ‘an admission of liability’ on the cause of
action to which the tender is related, so any would-be

33a
defendant who tried to deny liability could not
effectuate a tender.”) (collecting cases).
37. To the extent not specifically addressed
above, the Court has considered Defendants’ other
arguments and either finds them unpersuasive or
unnecessary to resolve in light of the Court’s findings
and conclusions as stated herein.
V. Imposition of Penalty/Judgment
38. CADA provides that “[a]ny person who
violates section 24-34-601 shall be fined not less than
fifty dollars nor more than five hundred dollars for
each violation” payable to the aggrieved party. C.R.S.
§ 24-34-602(1)(a). As set forth above, Defendants
violated CADA’s prohibition against discrimination in
a place of public accommodation. In consideration of
all of the facts of this case, the Court orders
Defendants to pay Ms. Scardina $500.00 as a penalty
for their violations of CADA.
CONCLUSION
In arguing that they should prevail in this matter,
Defendants quote the stirring words of Justice
Jackson in West Virginia State Board of Education v.
Barnette: “If there is any fixed star in our
constitutional constellation, it is that no official, high
or petty, can prescribe what shall be orthodox in
politics, nationalism, religion, or other matters of
opinion or force citizens to confess by word or act their
faith therein.” 319 U.S. 624, 642 (1943). But as
Defendants also argue, context matters. In Barnette,
government officials insisted that the children of
Jehovah’s Witnesses salute the flag—a basic form of
compelled patriotism through symbolic speech. Id. at

34a
627-30. That is quite different than preventing places
of public accommodation from discriminating against
transgender persons. The anti-discrimination laws
are intended to ensure that members of our society
who have historically been treated unfairly, who have
been deprived of even the every-day right to access
businesses to buy products, are no longer treated as
“others.” This case is about one such product—a pink
and blue birthday cake—and not compelled speech.
DATED AND ORDERED: June 15, 2021.
BY THE COURT:

Judge A. Bruce Jones
Denver District Court Judge

